Case: 20-2782

Document: 7-1

Page: 1

Date Filed: 03/04/2021 AfPe'id'1*' A

•t

February 4, 2021
CLD-085
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2782
SHALAMAR CARMON, Appellant
v.
SUPERINTENDENT SCI FAYETTE, ET AL.
(E.D. Pa. Civ. No. 5-19-cv-06113)
Present: RESTREPO, MATEY and SCIRICA, Circuit Judges

Submitted is appellant's request for a certificate of appealability under 28
U.S.C. § 2253(c)(1) in the above-captioned case.
Respectfully,

Clerk
ORDER
Cannon’s application for a certificate of appealability is denied. See 28 U.S.C.
§ 2253(c). For substantially the reasons given by the Magistrate Judge, jurists of reason
would agree without debate that the District Court correctly dismissed Camion’s 28 U.S.C.
§ 2254 petition as time barred, and that Cafmon was not entitled to equitable tolling nor
any other alteration to the filing deadline. See Holland v. Florida, 560 U.S. 631, 649-50
(2010) (allowing equitable tolling where extraordinary circumstances prevented timely
filing despite a petitioner’s reasonable diligence); see also McOuiggin v. Perkins. 569 U.S.

Case: 20-2782

Document: 7-1

Page: 2

Date Filed: 03/04/2021

*

383, 386 (2013) (holding that “actual innocence” is a “gateway through which a petitioner
may pass” when seeking relief in an otherwise untimely petition).
By the Court,
s/Paul B, Matey
Circuit Judge
Dated: March 4, 2021
CLW/cc: Mr. Shalamar Carmon

A True Copy:^° '►js'.Ii!'0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Manda

2

Case 5:19-cv-06113-JCJ Document? Filed 08/10/20 Page 1 of 1

vL &

*.

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
SHALAMAR CARMON,
Petitioner,

CIVIL ACTION

v.
J. LANE, et al.,
Respondents.

NO. 19-6113
ORDER

AND NOW, this

10th day of

August

, 2020, upon careful and independent

consideration of the pleadings and available state court records, and after review of the Report and
Recommendation of United States Magistrate Judge David R. Strawbridge, it is ORDERED that:
1. The Report and Recommendation is APPROVED and ADOPTED;
2. The petition for a writ of habeas corpus is DISMISSED;
3. A certificate of appealability SHALL NOT issue, in that the Petitioner has not made a
substantial showing of the denial of a constitutional right nor demonstrated that reasonable jurists
would debate the correctness of the procedural aspects of this ruling. See 28 U.S.C. § 2253(c)(2);
Slackv. McDaniel, 529 U.S. 473, 484 (2000); and
4. The Clerk of the Court shall mark this case CLOSED for statistical purposes.
BY THE COURT:
s/ J. Curtis Joyner
J. CURTIS JOYNER,

J.

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 1 of 13

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

SHALAMAR CARMON,
Petitioner,
v.
J. LANE, et al.,
Respondents.

NO. 19-6113

REPORT AND RFCOMMFNDATION

DAVID R. STRAWBRIDGE
UNITED STATES MAGISTRATE JUDGE

March

,2020

Before the Court for Report and Recommendation is the pro se petition of Shalamar
Carmon (“Carmon” or “Petitioner”) for the issuance of a writ of habeas corpus pursuant to 28
U.S.C. § 2254. His petition challenges the first-degree murder conviction obtained against him on
October 3, 2006 in the Lehigh County Court of Common Pleas. (Doc. 3 at ECF p. 1.) He seeks
habeas relief on what he sets out as three grounds, all of which relate to the situation that he was
charged by information with the general offense of “criminal homicide” but convicted of what he
considers to be “the separate and distinct offense of murder of the first degree.” (Id at ECF p. 17.)
As we set out below, we have determined that Carmon’s petition is untimely. Accordingly,
we recommend that it be dismissed.

I.

FACTUAL AND PROCEDURAL BACKGROUNDi
Carmon was arrested on August 2,2004 and charged with criminal homicide, 18 Pa. Cons.

Stat. § 2501, in the July 24, 2004 killing of Jason Fritchman. He was tried before a jury and found

The chronology described in this Report and Recommendation is derived from the various
attachments to the petition (Doc. 3), including the PCRA Court’s 1925(a) Opinion dated 5/10/2018
(continued ...)
1
i

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 2 of 13

guilty on October 3, 2006. The docket reflects that the trial judge docketed on that same date a
“First Degree Murder Sentencing Verdict Slip (Jury)” and that it sentenced Carmon on that date
to confinement for “The Rest of Your Natural Life.” (CP Ct. Dkt. at 1-3, 13-14.) Carmon filed
post-trial motions and an appeal in which he asserted that the conviction was not supported by
sufficient evidence and was against the weight of the evidence. (Pet., Doc. 3, at ECF p. 2.) The
Superior Court, however, affirmed the judgment of conviction, Commonwealth v. Carmon, 947
A.2d 822 (Pa. Super. Ct. Jan. 4, 2008) (Table), and the Pennsylvania Supreme Court denied
allowance of appeal on June 26, 2008. Id., 951 A.2d 1160 (Pa. June 26, 2008) (Table). He did
not seek further review by the United States Supreme Court. (Pet., Doc. 3, at ECF p. 3.)
Carmon then embarked upon a lengthy post-conviction litigation journey in state court. He
first filed a timely pro se petition under the Post Conviction Relief Act (“the PCRA”) on or about
June 3,2009. Counsel was appointed and filed an amended petition, alleging ineffective assistance
of pretrial and trial counsel for failing to seek suppression of identification testimony and for
failing to object to the introduction of photographs of the crime scene. (PCRA Ct. Opin. at 2.) On
June 11, 2010, following an evidentiary hearing, the court denied and dismissed the petition. The
Superior Court affirmed the dismissal, and the Pennsylvania Supreme Court denied allowance of

(“PCRA Ct. Opin.”) (Doc. 3 at ECF pp. 18-22) and the Superior Court opinion that followed on
12/5/2018 (“Super. Ct. Opin.”) (Doc. 3 at ECF pp. 23-27); the documentation of Carmon’s
conviction and appeals catalogued by Westlaw; and the publicly-available criminal and appellate
dockets maintained by The Unified Judicial System of Pennsylvania Web Portal for No. CP-39CR-0003283-2004 (“CP Ct. Dkt.”) (last visited Mar. 10, 2020).
As we set forth below, we determined that this petition could be resolved on procedural
grounds without requiring the Court of Common Pleas to provide us its complete record. We rely
upon the online docket and the description of those events provided in the state court opinions
cited above for our understanding of the critical events in state court.
2

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 3 of 13

appeal on September 14, 2011. Commonwealth v. Carmon, 29 A.3d 830 (Pa. Super. Ct. Apr. 12,
2011) (Table); id., 29 A.3d 370 (Pa. Sept. 14, 2011) (Table).
Carmon next filed in the Court of Common Pleas on January 30, 2012 a document
characterized as a “Pro Se Writ of Habeas of Ad Subjiciendum.” The court denied relief on
February 21, 2012.2 (CP Dkt. at 22-23.) The Superior Court affirmed and the Pennsylvania
Supreme Court denied allowance of appeal on June 19, 2013. See Pa. Super. Ct. No. 964 EDA
2012; Pa. S. Ct. No. 77 MAL 2013. Carmon’s next petition, for a writ of habeas corpus, was
docketed on June 5, 2015 in the Civil Division of the Court of Common Pleas. He asserted that
he was confined unlawfully due to the invalidity of his sentencing order, which he alleged cited to
18 Pa. Cons. Stat. § 2501 and not § 1102(a), the section that provides for a minimum sentence of
life for conviction of first-degree murder. The court dismissed the petition on the grounds that the
PCRA subsumes the writ of habeas corpus and where the petition was untimely under the PCRA.
The Superior Court affirmed, and on August 10, 2016 the Pennsylvania Supreme Court denied
review. See Carmon v. Coleman, No. 2195 EDA 2015, 2016 WL 834312 (Pa. Super. Ct. Mar. 3,
2016); Pa. S. Ct. No. 212 MAL 2016.
At the same time that Carmon was pursuing his civil habeas corpus petition in state court,
he also undertook efforts in 2016 to obtain transcripts of his sentencing proceeding. (CP Dkt. at
24-26.) On December 12, 2016, he filed another PCRA petition, claiming he was being held
illegally “because there [was] no statute given by the court order, related to [his] sentencing
proceeding, that ever had the lawful authority to give the Department of Corrections any power to
enforce any provisions remotely close to accepting, confining and depriving [him] of his liberty in

2 Later state court opinions described this filing as having been construed as a PCRA petition that
was deemed untimely.
3

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 4 of 13

any way....” Commonwealth v. Carmon, No. 549 EDA 2017, 2017 WL 6015782 (Pa. Super. Ct.
Dec. 5, 2017) (appending Common Pleas Court opinion of Feb. 27, 2017, quoting PCRA Pet. at
19). The PCRA Court dismissed the petition as untimely on January 23, 2017, and the Superior
Court affirmed the dismissal on December 5, 2017. Id.
A few months later, on February 22,2018, Carmon filed another pro se PCRA petition. In
this petition, he asserted - as he does in his petition to our Court - that the trial court lacked subject
matter jurisdiction to convict him of first-degree murder where the criminal information filed by
the Commonwealth charged him instead with “criminal homicide.” (Super. Ct. Opin. at 2
[appended to Pet., Doc. 3], citing Pro Se PCRA Pet., 2/22/2018, at 10.) The PCRA Court gave
notice of its intent to dismiss the petition without a hearing, to which Carmon responded.
Nonetheless, the court dismissed the petition on March 28, 2018 on the grounds that it was
untimely. (PCRA Ct. Opin. at 3 [appended to Pet., Doc. 3].) The Superior Court affirmed the
dismissal on December 5, 2018, rejecting Carmon’s contention that a challenge to the subject
matter jurisdiction of the trial court could be presented to a PCRA Court at any time. (Super. Ct.
Opin. at 3-4.) The court also noted that even if Carmon had pleaded and proved a timeliness
exception allowing his claim to be considered, the claim had no merit.3 (Id. at 4 n.2.) He sought
allowance of appeal in the Pennsylvania Supreme Court but his request was denied.
Commonwealth v. Carmon, 217 A.3d 206 (Pa. Aug. 20, 2019).

3 The court noted that a defendant is entitled to formal and specific notice of the crimes charged,
and that Carmon was formally charged with one count of criminal homicide. The court cited one
of its precedents in which it determined that “[a]n information need not specify the degrees of
homicide or manslaughter in order to sustain a second-degree murder conviction,” Commonwealth
v. Chambers, 852 A.2d 1197, 199 (Pa. Super. Ct. 2004), concluding that Carmon “would not be
entitled to relief.” (Super. Ct. Opin. at 4 n.2.)
4

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 5 of 13

On or about December 12, 2019, Carmon submitted the pro se § 2254 habeas petition that
was received and docketed on December 23, 2019 and is presently before the Court. He contends
in Ground One that he was denied due process of law, allegedly in violation of the Sixth
Amendment, where “the information he was confronted with, was a vague written statement of
dispensable [sic] facts that kept the nature of the accusation against Petitioner ambiguous.” (Doc.
3 at ECF p. 17.) In support of this ground, he asserts that “[t]he facts framing the information
Petitioner was confronted with, alleging one count of the general offense of criminal homicide, is
capable of being interpreted in more than one way.” (Id.) In Ground Two he alleges another due
process claim, again relating to the Sixth Amendment, “on the grounds that, for one count of the
general offense of criminal homicide, the information failed to state the specific offense charged
under the statute Petitioner was alleged to have violated.” (Id.) He noted that the information
cited 18 Pa. Cons. Stat. § 2501 for one count of the general offense of criminal homicide and
argued that it “failed to give the official or customary statute under the separate and distinct offense
of murder, voluntary manslaughter, or involuntary manslaughter that Petitioner was alleged to
have violated.” (Id.) Finally, he asserted in Ground Three that he was denied due process of law
“in violation of the 14* amend[ment] ... on the grounds that he was convicted upon a charge not
made.” (Id.) He again asserts that he was “formally charged with one count of criminal homicide,
generally, under 18 Pa. Cons. Stat. § 2501, but was specifically convicted of the separate offense
of murder of the first degree,” which is found in § 2502(a). (Id.) He asks the Court to “[v]acate
the void judgment of conviction,” so that he may be released from state custody. (Id. at ECF p.
15.) Where asked on the form to “explain why the one-year statute of limitations as contained in
28 U.S.C. § 2244(d)[4] does not bar [his] petition,” Carmon responded:

4 That statutory provision is reprinted in full in the form petition. See Pet. at ECF p. 15.
5

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 6 of 13

Pursuant to Fed. R. Crim. P. 12(b)(3)(B), a defendant is permitted
to move for dismissal of an indictment at any time if it lacks
specificity or fails to state an offense; and A [sic] person may not be
punished for a crime without a formal and sufficient accusation.
(Pet. atECFp. 14.)
On January 28, 2020, the Honorable J. Curtis Joyner referred this matter for preparation of
a Report and Recommendation. With the materials before us, we were able to determine that it
would not be necessary to require an answer to the petition from the Lehigh County District
Attorney or to obtain he original state court record from the Court of Common Pleas. For the
reasons set forth below, we recommend that the petition be summarily dismissed.
II.

STANDARD OF REVIEW
With respect to habeas petitions generally, the statute ordinarily requires the reviewing

court to order a response from a named respondent upon receipt of a habeas application. This
process does not apply, however, where it is apparent on the face of the pleading itself that the
petitioner cannot obtain habeas relief. See 28 U.S.C. § 2243 (describing requirement for answer
by respondents “unless it appears from the application that the applicant or person detained is not
entitled” to habeas relief).
Similarly, Rule 4 of the Rules Governing Section 2254 Cases in the United States District
Courts provides that the district court, upon receipt of a habeas petition, must promptly examine
it, and, “[i]f [upon examination] it plainly appears from the petition and any attached exhibits that
the petitioner is not entitled to relief in the district court, the judge must dismiss the petition and
direct the clerk to notify the petitioner.” Rule 4 (emphasis added). Rule 4 further states that a
judge must order the respondent to file an answer only “[i]f the petition is not dismissed ....” Id.
The plain language of the rule thus makes clear that where it is apparent from the face of the
6

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 7 of 13

pleading that the petitioner will not prevail, the petition must be dismissed without ordering the
respondent to answer. The Advisory Committee Notes to the rule confirm this interpretation,
recognizing that “under § 2243 it is the duty of the court to screen out frivolous applications and
eliminate the burden that would be placed on the respondent by ordering an unnecessary answer.”
Advisory Committee Note to Rule 4 Governing Section 2254 Cases.
Numerous courts within our Circuit have followed this interpretation and have dismissed
habeas petitions upon an initial screening. See, e.g., Parker v. Tritt, Civ. A. No. 15-5167, 2016
WL 392675 (E.D. Pa. Jan. 12, 2016) (Strawbridge, M.J.), rep. & recomm. adopted, 2016 WL
366900 (E.D. Pa. Jan. 28, 2016) (Beetlestone, J.), cert, of appealability denied, No. 16-1416 (3d
Cir. July 12, 2016); Alexander v. Corbin, Civ. A. No. 11-2727, 2011 WL 5340568 (E.D. Pa. Sept.
28, 2011), rep. & recomm. adopted, 2011 WL 5357828 (E.D. Pa. Nov. 3, 2011); Shaw v. Wynder,
Civ. A. No. 08-1863, 2008 WL 3887642 (E.D. Pa. Aug. 20, 2008); Craig v. Rozum, Civ. A. No.
07-5490, 2008 WL 920346 (E.D. Pa. Apr. 2,2008); Watson v. Wynder, Civ. A. No. 07-4066 (E.D.
Pa. Nov. 27, 2007). See also Allen v. Perini, 424 F.2d 134, 140-41 (6th Cir. 1970) (determining
that a reviewing federal habeas court “has a duty to screen out a habeas corpus petition which
should be dismissed for lack of merit on its face. No return is necessary when the petition is
frivolous, or obviously lacking in merit, or where, as here, the necessary facts can be determined
from the petition itself without need for consideration of a return.”).
III.

DISCUSSION
Carmon cannot obtain federal review of his claims and habeas relief from his petition

without satisfying certain procedural requirements. We here address the statute of limitations
applicable to § 2254 petitions and consider how that statute applies to Carmon’s petition. In light
of the determination that we set forth below, we do not find it necessary to address the merits of
7

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 8 of 13

his inter-related claims, which do not appear viable as a matter of law. 5 We conclude that
Carmon’s petition may be summarily dismissed as untimely.
A.

Statute of limitations

The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), legislation that
pre-dates Petitioner’s convictions, imposed a one-year period of limitations for the filing of an
application for a writ of habeas corpus. The statute provides:
A 1-year period of limitation shall apply to an application for a writ
of habeas corpus by a person in custody pursuant to the judgment of
a State court. The limitation period shall run from the latest of —
(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for seeking
such review;
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws of the
United States is removed, if the applicant was prevented from filing
by such state action;
(C) the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has been
newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or
claims presented could have been discovered through the exercise
of due diligence.
(2) The time during which a properly filed application for State
post-conviction or other collateral review with respect to the
pertinent judgment or claim is pending shall not be counted toward
any period of limitation under this subsection.
28 U.S.C. § 2244(d).

5 We are unaware of any court accepting the proposition that a criminal defendant’s constitutional
rights are violated where he is initially charged generally with criminal homicide but later
convicted by a jury, upon sufficient evidence as a matter of law, of first-degree murder.
8

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 9 of 13

Our district’s form habeas petition reproduced this statutory text for Petitioner’s benefit.
(Pet. at ECF p. 15.) It also provided an opportunity for him to “explain why the one-year statute
of limitations as contained in 28 U.S.C. § 2244(d) does not bar [his] petition.” {Id. at ECF p. 14.)
As noted above, his response purported to cite Fed. R. Crim. P. 12(b)(3)(B) for the proposition
that “a defendant is permitted to move for dismissal of an indictment at any time if it lacks
specificity or fails to state an offense.” (Pet. at ECF p. 15.) Fie did not otherwise address the
application of 28 U.S.C. § 2244(d) or any of its provisions to his petition.
Carmon misapprehends which rules apply to his federal challenge to his state conviction.
As a state prisoner seeking federal habeas review pursuant to 28 U.S.C. § 2254, he is bound by the
Federal rules of Civil Procedure and the Rules Governing 2254 Habeas Cases that are found
following § 2254 in volume 28 of the United States Code. The Federal Rules of Criminal
Procedure apply to the federal prosecutions in the U.S. district courts, e.g., prosecutions pursued
by the United States Attorney’s Office. See generally Fed. R. Crim. P. 1. Carmon was not indicted
in a federal district. His invocation of Fed. R. Crim. P. 12(b)(3)(B) is inapposite.
1.

Commencement of the limitations period

When we apply 28 U.S.C. § 2244(d), it is apparent that Carmon’s petition does not meet
the criteria. We first evaluate which subsection of § 2244(d)(1) dictates the start of the limitations
period. Carmon’s petition as a whole does not suggest the applicability of subsections (B), (C), or
(D) of § 2244(d)(1). He does not contend that a new law or newly-discovered facts affected the
propriety of his conviction or sentence. Rather, he asserts that there was a defect in his charging
document and in his conviction based on the statutory provisions referring to homicide and firstdegree murder. See Pet. at ECF p. 17. He states in his petition that he did not bring these claims
in his direct appeal because he “was unaware of such Constitutional violations.” (Pet. at ECF pp.
9

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 10 of 13

6, 8, 9.) Claims based upon those facts, however, were available to him, and there is no reason to
believe that the basis for these claims could not have been “discovered through the exercise of due
diligence” prior to 2018, when he first articulated them in a PCRA petition. See 28 U.S.C. §
2244(d)(1)(D).
We conclude that the commencement of the limitations period is determined by
§ 2244(d)(1)(A), which refers to the “conclusion of direct review or the expiration of the time for
seeking such review.” In Carmon’s case, his conviction of October 3, 2006 was affirmed by the
Pennsylvania Superior Court and his timely request for allowance of appeal was denied by the
Pennsylvania Supreme Court on June 26, 2008. See 951 A.2d 1160. He then had a period of 90
days in which to seek certiorari in the United States Supreme Court to extend the direct review
process. As he did not, however, his conviction became final upon the expiration of that 90-day
period, on September 24, 2008. The federal limitations period thus began to run on September 25,
2008.
2.

Statutory tolling

Pursuant to § 2244(d)(2), the AEDPA limitations period was tolled during the pendency of
his first PCRA litigation, which he timely initiated on or about June 3,2009. That action remained
pending in state court until the Pennsylvania Supreme Court denied allowance of appeal on
September 14,2011. Inasmuch as 251 days of the one-year AEDPA limitations period had already
elapsed before Carmon sought PCRA relief, only 114 days remained after the conclusion of the
PCRA litigation for him to file a timely § 2254 petition, absent any other period of tolling. Thus,
he had to file by January 6, 2012. He failed to do so.
Carmon filed his federal habeas petition on December 12, 2019, almost eight years later.
His filing is untimely under the statute.
10

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 11 of 13

3.

Equitable tolling

The United States Supreme Court has recognized that, notwithstanding the statutory tolling
provided for by § 2244(d)(2), federal courts may equitably toll the limitations period if a habeas
petitioner can demonstrate ‘“(1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way’ and prevented timely filing.” Holland v. Florida,
560 U.S. 631, 649 (2010) (finding “extraordinary circumstances” where petitioner’s attorney’s
failed to communicate important deadlines and status updates despite repeated inquiries from the
petitioner expressed to his attorney, the state courts, and the Florida State Bar Association). While
Holland established that equitable tolling could be available in habeas actions, it remains the case
that “a court should be sparing in its use of the doctrine.” Ross v. Varano, 712 F.3d 784, 799 (3d
Cir. 2013).
Carmon’s papers make no claim for equitable tolling of the limitations period, nor does he
allege any circumstances that would otherwise suggest to us that there would be any basis for the
Court to toll the limitations period on such grounds. Rather, the petition and state court materials
show that Carmon was involved in various efforts to put the validity of his conviction and sentence
before the state courts. Even assuming this activity reflected diligent efforts on his part, there is
nothing in the record to suggest that any such extraordinary circumstances prevented him from
presenting his current § 2254 habeas claims to the state courts in a timely manner. Nor does
anything in the record suggest that extraordinary circumstances prevented him from seeking to
preserve timely review of any such claims in this Court. We see no basis for any equitable tolling
of the §2254 limitations period. Carmon’s petition remains untimely.

11

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 12 of 13

4.

Actual innocence as an excuse for noncompliance with statute of
limitations

The courts are permitted to consider the merits of Constitutional claims that were not
brought in compliance with 28 U.S.C. § 2244(d) if there is evidence that the petitioner is actually
innocent. As the Court stated in McQuiggin v. Perkins, 569 U.S. 383 (2013), “a procedural bar
[like] the statute of limitations” can be overcome if the petitioner could establish the “gateway” of
“actual innocence.” McQuiggin, 569 U.S. at 386. This standard focuses upon factual innocence
based upon new evidence that was not presented at trial. It requires the petitioner to “show that it
is more likely than not that no reasonable juror would have convicted him in the light of the new
evidence.” Id. at 399 (quotation omitted).
Cannon does not assert that he did not intentionally kill Jason Fritchman, nor do any of his
arguments presented to the state court, as reflected in the opinions he appended to his petition,
suggest that there is any new evidence he might present that would undermine confidence in the
validity of the jury’s finding that he committed this offense. The McQuiggan exception does not
apply and Carmon is not excused from compliance with 28 U.S.C. § 2244(d).
III.

CONCLUSION
Cannon’s petition is untimely. The petition had to have been filed by January 6, 2012 but

was not filed until December 12, 2019, nearly eight years later. He has not established a basis to
be excused from compliance with the statute of limitations. We therefore recommend that the
District Court dismiss his petition for failure to comply with 28 U.S.C. § 2244(d).
Pursuant to Local Appellate Rule 22.2 of the Rules of the United States Court of Appeals
for the Third Circuit, at the time a final order denying a habeas petition is issued, the district court
judge is required to make a determination as to whether a certificate of appealability (“COA”)
12

Case 5:19-cv-06113-JCJ Document 6 Filed 03/27/20 Page 13 of 13

should issue. A COA should not issue unless the petitioner demonstrates that jurists of reason
would find it to be debatable whether the petition states a valid claim for the denial of a
constitutional right.
Here, for the reasons set forth above, we do not believe a reasonable jurist would find the
Court to have erred in dismissing the present petition. Accordingly, we do not believe a COA
should issue. Our Recommendation follows.
RECOMMENDATION
AND NOW, this

27th

day of March, 2020, it is respectfully RECOMMENDED

that the petition for a writ of habeas corpus be DISMISSED.

It is FURTHER

RECOMMENDED that a certificate of appealability should NOT ISSUE, as we do not believe
that Petitioner has demonstrated that reasonable jurists would find the correctness of the procedural
aspects of this Recommendation debatable, nor would they debate the merits of his claims.
Petitioner may file objections to this Report and Recommendation. See Local Civ. Rule
72.1. Failure to file timely objections may constitute a waiver of any appellate rights.
BY THE COURT:
/s/ David B Strawhridge. TTSM.T
DAVID R. STRAWBRIDGE
UNITED STATES MAGISTRATE JUDGE

13

Case 5:19-cv-06113-JCJ Document 6-1 Filed 03/27/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
SHALAMAR CARMON,

CIVIL ACTION

Petitioner,
v.
J. LANE, et al.,
Respondents.

NO. 19-6113
ORDER

AND NOW, this

day of

, 2020, upon careful and independent

consideration of the pleadings and available state court records, and after review of the Report and
Recommendation of United States Magistrate Judge David R. Strawbridge, it is ORDERED that:
1. The Report and Recommendation is APPROVED and ADOPTED;
2. The petition for a writ of habeas corpus is DISMISSED;
3. A certificate of appealability SHALL NOT issue, in that the Petitioner has not made a
substantial showing of the denial of a constitutional right nor demonstrated that reasonable jurists
would debate the correctness of the procedural aspects of this ruling. See 28 U.S.C. § 2253(c)(2);
Slack v. McDaniel, 529 U.S. 473, 484 (2000); and
4. The Clerk of the Court shall mark this case CLOSED for statistical purposes.
BY THE COURT:

J. CURTIS JOYNER,

J.

Case 5:19-cv-06113-JCJ Document 6-2 Filed 03/27/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
3/27/2020
RE:

CARMON v, LANE., ET AL
CANo. 19-CV-6113

NOTICE
Enclosed herewith please find a copy of the Report and Recommendation filed by
United States Magistrate Judge Strawbridge, on this date in the above captioned matter. You are
hereby notified that within fourteen (14) days from the date of service of this Notice of the filing
of the Report and Recommendation of the United States Magistrate Judge, any party may file (in
duplicate) with the clerk and serve upon all other parties written objections thereto (See Local
Civil Rule 72.1 IV (b)). Failure of a party to file timely objections to the Report &
Recommendation shall bar that party, except upon grounds of plain error, from attacking
on appeal the unobjected-to factual findings and legal conclusions of the Magistrate Judge
that are accepted by the District Court Judge.
In accordance with 28 U.S.C. §636(b)(l)(B), the judge to whom the case is
assigned will make a de novo determination of those portions of the report or specified proposed
findings or recommendations to which objection is made. The judge may accept, reject or
modify, in whole or in part, the findings or recommendations made by the magistrate judge,
receive further evidence or recommit the matter to the magistrate judge with instructions.
Where the magistrate judge has been appointed as special master under F.R.Civ.P
53, the procedure under that rule shall be followed.

KATE BARKMAN
Clerk of Court

By:s/James Deitz____________
James Deitz, Deputy Clerk
cc:

S. Carmon, p.p. GU-9915

Courtroom Deputy to Judge Joyner
civ623.frm
(11/07)

/Iffedi'd C-

J-S57032-18

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P 65.37
COMMONWEALTH OF PENNSYLVANIA,

IN THE SUPERIOR COURT OF
PENNSYLVANIA

Appellee

v.
SHALAMAR R. CARMON,
No. 1307 EDA 2018

Appellant

Appeal from the PCRA Order March 28, 2018
in the Court of Common Pleas of Lehigh County
Criminal Division at No(s): CP-39-CR-0003283-2004
BEFORE:

PANELLA, J., PLATT, J.* and STRASSBURGER, J.*

MEMORANDUM BY STRASSBURGER, J.:

FILED DECEMBER 05, 2018

Shalamar R. Carmon (Appellant) appeals pro se from the March 28,
2018 order dismissing his petition filed pursuant to the Post Conviction Relief
Act (PCRA), 42 Pa.C.S. §§ 9541-9546. We affirm.
In its opinion, the PCRA court fully and correctly sets forth the factual
and procedural history of this case. PCRA Court Opinion, 5/10/2018, at 1-3.
Therefore, we have no reason to restate it. Pertinent to this appeal, in 2004
Appellant was charged with one count of criminal homicide pursuant to 18
Pa.C.S. § 2501.1 In 2006, following a jury trial, Appellant was convicted of
first-degree murder and was sentenced to life imprisonment.
!

1 "A person is guilty of criminal homicide if he intentionally, knowingly,
recklessly or negligently causes the death of another human being." 18
Pa.C.S. § 2501(a). "Criminal homicide shall be classified as murder, voluntary
manslaughter, or involuntary manslaughter" 18 Pa.C.S. § 2501(b).
^Retired Senior Judge assigned to the Superior Court.

On January 4, 2008, this Court affirmed Appellant's judgment of
sentence, Commonwealth v. Carmon, 947 A.2d 822 (Pa. Super. 2008)
(unpublished memorandum), and the Pennsylvania Supreme Court denied
Appellant's petition for allowance of appeal. Commonwealth v. Carmon,
951 A.2d 1160 (Pa. 2008). Since then, Appellant has filed two PCRA petitions,
both of which resulted in no relief.
Most recently, Appellant filed pro se a third PCRA petition on February
22, 2018. Therein, Appellant asserted that the trial court was without subject
matter jurisdiction to convict Appellant of the aforementioned crime because
the criminal information filed by the Commonwealth charged Appellant with
criminal homicide and not first-degree murder.

Pro Se PCRA Petition,

2/22/2018, at 10. On March 8, 2018, the PCRA court filed a notice of intent
to dismiss the petition without a hearing pursuant to Pa.R.Crim.P. 907.
Appellant responded, and the petition was dismissed by order of March 28,

2018.
Appellant timely filed a notice of appeal. Both Appellant and the PCRA
court complied with Pa.R.A.P. 1925. Appellant presents one question to this
Court on appeal: "Did the PCRA court err in denying Appellant's PCRA petition
to strike the void judgment rendered by the Lehigh County Court of Common
Pleas for lack of subject matter [jurisdiction], where the Commonwealth failed
to confront Appellant with a formal accusation, specifically charging him with

- 2-

« '

.9

.

murder of the 1st degree?" Appellant's Brief at 4 (unnecessary capitalization
omitted).
Before we can examine the substantive claim Appellant raises on appeal,
we must determine whether the filing of his PCRA petition was timely. See,
e.g., Commonwealth v. Lewis, 63 A.3d 1274, 1280-81 (Pa. Super. 2013)
(quoting Commonwealth v. Chester, 895 A.2d 520, 522 (Pa. 2006)) ("[I]f
a PCRA petition is untimely, neither this Court nor the [PCRA] court has
jurisdiction over the petition. Without jurisdiction, we simply do not have the
legal authority to address the substantive claims.").
Generally, a petition for relief under the PCRA, including a second or
subsequent petition, must be filed within one year of the date the judgment
of sentence is final unless the petition alleges, and the petitioner proves, that
an exception to the time for filing the petition is met, and that the claim was
raised within 60 days of the date on which it became available. 42 Pa.C.S.
§ 9545(b).
It is clear that Appellant's 2018 petition is facially untimely; his
judgment of sentence became final in 2008. Yet, in his brief, Appellant offers
no discussion of any timeliness exception. Rather, he argues the PCRA court
erred in dismissing his claim as untimely because a challenge to the lack of
subject matter jurisdiction can be raised at any time. Appellant's Brief at 11.
Contrary to this position, this Court has held that a claim alleging the
trial court lacked subject matter jurisdiction "does not overcome the PCRA's

-3-

one year jurisdictional time-bar as it does not fall within one of the statutory
exceptions."

Commonwealth v. Dickerson, 900 A.2d 407, 412 (2006).

See also Commonwealth v. Eller, 807 A.2d 838, 845 (Pa. 2002) ("The PCRA
confers no authority upon this Court to fashion ad hoc equitable exceptions to
the PCRA time-bar in addition to those exceptions expressly delineated in the
Act.").
In light of the foregoing, because Appellant's petition was untimely-filed
and he has not asserted an exception to the timeliness requirements, he is
not entitled to relief.2 See Commonwealth v. Albrecht, 994 A.2d 1091,
1095 (Pa. 2010) (affirming dismissal of PCRA petition without a hearing
because the appellant failed to meet burden of establishing timeliness
exception).
Order affirmed.

2 Even if Appellant pleaded and proved a timeliness exception allowing this
Court to review his claim, he still would not be entitled to relief. "Subject
matter jurisdiction exists when the court is competent to hear the Case and
the defendant has been provided with a formal and specific notice of the
crimes charged." Commonwealth v. Jones, 929 A.2d 205, 208 (Pa. 2007).
In this case, these requirements were met. See PCRA Court Opinion,
5/10/2018, at 5 (finding jurisdiction was proper because "the offense was
committed within Lehigh County" and "Appellant was formally charged with
one count of [c]riminal [h]omicide[.]"). "An information need not specify a
degree of murder[.]" Commonwealth v. Chambers, 852 A.2d 1197, 1199
(Pa. Super. 2004) (holding that an information need not specify the degrees
of homicide or manslaughter in order to sustain a second-degree murder
verdict). Thus, not only does Appellant's untimely-filed petition not meet any
of the timeliness exceptions, his sole claim on appeal has no merit.
-4-

/•

Judge Platt did not participate in the consideration or decision of this
case.
Judgment Entered.

Joseph D. Seletyn, Esq.
Prothonotary
Date: 12/5/18

-5 -

fl pfd'xlti P
V.

IN THE COURT OF COMMON PLEAS OF LEHIGH COUNTY, PENNSYLVANIA
CRIMINAL DIVISION
^ %
COMMONWEALTH OF PENNSYLVANIA
vs.

o
No. 3283/2004
EDA 2018

SHALAMAR R. CARMON,
Defendant

Vo^

1925(a) Opinion
Shalamar Carmon, Appellant, has appealed from the Court’s order dismissing his fourth
Post Conviction Relief Act (PCRA) petition on March 28,2018. For the reasons set forth herein,
the Court was without jurisdiction to consider Appellant’s PCRA petition and said petition was
properly dismissed.
Factual and Procedural Background
This case stems from a 2004 homicide, which was litigated in Case No. CP-39-CR0003283-2004. Appellant was charged with and subsequently convicted of Murder in the First
Degree for the murder of Jason Fritchman. A jury convicted Appellant in October of 2006 and he
was sentenced to life imprisonment without parole. The^SuperiorCourta’ffirmedthat sentence,
Commonwealth v. Carmon, 947 A.2d 822 (Pa. Super. 2008) (unpublished memorandum), and the
Pennsylvania Supreme Court rejected Appellant’s allocatur petition on June 26,2008.
Commonwealth v. Carmon, 951 A.2d 1160 (Pa. 2008) (table).
Appellant filed a timely PCRA petition alleging ineffectiveness of pretrial and trial
counsel for failing to seek suppression of identification testimony and failing to object to the
introduction of photographs of the crime scene. His PCRA petition was denied and dismissed on
June 11,2010. Appellant appealed to the Superior Court, which affirmed. Commonwealth v.
2

<*>

?

Cameron, 29 A.3d 830 (Pa. Super. 2011) (table). The Supreme Court rejected the Appellant’s
appeal. Commonwealth v. Cameron, 29 A.3d 370 (Pa. 2011) (table).
On December 12,2016, Appellant filed another PCRA Petition. On January 23, 2016, the
Court entered an order dismissing the PCRA petition. Appellant filed a Notice of Appeal on
February 8, 2017. The Superior Court affirmed the Court’s dismissal on December 5, 2017.
On February 22,2018, Appellant filed the instant PCRA Petition. On March 8, 2018, the
Court entered a Notice of Intent to Dismiss the PCRA Petition without a hearing pursuant to
Pa.R.Crim.P. 907. Appellant timely filed a response on March 27,2018. On March 28, 2018, the
Court dismissed Appellant’s PCRA petition.
Appellant filed a Notice Of Appeal on April 24,2018. The Court directed Appellant to
file a Concise Statement of Matters Complained of on Appeal on April 25,2018. Appellant filed
\

a Concise Statement on May 8,2018.
This Opinion follows.
Discussion
Appellant has raised one issue on appeal. Appellant alleges the Court erred in dismissing
his PCRA petition because the judgment of sentence rendered by the Lehigh County Court of
Common Pleas was void for lack of subject matter jurisdiction.
As a threshold matter, second or subsequent PCRA petitions “will not be entertained
unless the petitioner presents a strong prima facie showing that a miscarriage of justice may have
occurred.” Commonwealth v. Abu-Jamal, 941 A.2d 1263, 1267 (Pa. 2008) (citing
Commonwealth v. Carpenter, 725 A.2d 154,160 (Pa. 1999)). “A petitioner makes a prima facie
showing if he demonstrates that either the proceedings which resulted in his conviction were so
unfair that a miscarriage of justice occurred which no civilized society could tolerate, or that he

3

V

was innocent of the crimes for which he was charged.” Commonwealth v. Burkhardt, 833 A.2d
233,236 (Pa. Super. 2003) (en banc) (citations omitted).
The timeliness requirements of the PCRA must be strictly construed and are jurisdictional
in nature; thus, courts are precluded from addressing the merits of issues raised in a PCRA
petition if it is untimely. Abu-Jamal, 941 A.2d at 1267. Petitions under the PCRA, including
second or subsequent petitions, must be filed within one year from the date the judgment
becomes final. 42 Pa.C.S. § 9545(b)(1). A judgment becomes final either after direct review,
including discretionary review, or after the expiration of the time for seeking review. Id. §
9545(b)(3).
There are three very narrow exceptions to the one year time period:
(i)

the failure to raise the claim previously was the result of interference by
government officials with the presentation of the claim in violation of the
Constitution or laws of this Commonwealth or the Constitution or laws of
the United States;

(ii)

the facts upon which the claim is predicated were unknown to the
Appellant and could not have been ascertained by the exercise of due
diligence; or

(iii)

the right asserted is a constitutional right that was recognized by the
Supreme Court of the United States or the Supreme Court of Pennsylvania
after the time period provided ... and has been held by that court to apply
retroactively.

—

Id. § 9545(b)(l)(i)-(iii).
If the PCRA petitioner can successfully demonstrate the applicability of any of the three
exceptions, he may file his petition within 60 days of the date that his claim could have been
presented. Id. § 9545(b)(2).
In the within matter, Appellant asserted he is eligible for relief because he is challenging
the legality of the sentence imposed. He claims to be proceeding under Section 9543(a)(2) of the

4

V
Post Conviction Relief Act, which establishes that a conviction stemming from a proceeding
before a tribunal without jurisdiction may serve as a ground for relief. Id. § 9543(a)(2)(viii).
Appellant has not previously raised this issue, and it is therefore waived. Pa.R.A.P. 302(a).
Furthermore, Appellant has not established that he satisfies any of the statutory exceptions to the
timeliness requirement of the PCRA. Even if Appellant had timely filed the instant PCRA or
raised this issue on appeal, the offense was committed within Lehigh County, which confers
jurisdiction on the Lehigh County Court of Common Pleas. Commonwealth v. Bethea, 828 A.2d
1066 (Pa. 2003). Accordingly, Appellant’s argument is without merit.
Lastly, Appellant argues that the Commonwealth “failed to confront Appellant with a
formal accusation, specifically charging him with murder of the first degree.” (Concise
Statement HI.) The docket reflects that Appellant was arraigned on October 26, 2004. Appellant
was formally charged with one count of Criminal Homicide generally under Section 2501 of the
Pennsylvania Crimes Code. Criminal Homicide statutorily includes murder, voluntary
t

manslaughter, or involuntary manslaughter. 18 Pa.C.S.A. § 2501(b). Because the docket belies
Appellant’s assertion, there was not any merit to this issue even if it had been properly preserved
or timely presented.

5

*

■£?

Conclusion
Because Appellant did not establish the existence of any applicable exception to the
PCRA’s time requirements, and because the issue he sought to raise was not meritorious, the
Court properly dismissed Appellant’s PCRA petition without a hearing. Consequently, the Court
respectfully recommends that its order dismissing the PCRA Petition be affirmed.
By the Court:

4A
Douglas G Reichley, J.
k

6

/j-pf&nJihi k
*
L-r

t W
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

:

No. 134 MAL 2019

Respondent
Petition for Allowance of Appeal from
the Order of the Superior Court
v.
SHALAMAR R. CARMON,
Petitioner

ORDER

PER CURIAM
AND NOW, this 20th day of August, 2019, the Petition for Allowance of Appeal is
DENIED.

AsT6uf^»Ioi!bethE'zlsk
Attest: .________________
Chief CferK
Supreme Court of Pennsylvania

